  October 24, 2003




Financial Management

Contracts Awaiting Financial
Adjustment at the Defense
Finance and Accounting
Service Columbus
(D-2004-004)




      Office of the Inspector General
                   of the
          Department of Defense
                                    Constitution of
                                   the United States

    A Regular Statement and Account of the Receipts and Expenditures of all public
    Money shall be published from time to time.
                                                               Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CAR                   Contract Administration Report
DCMA                  Defense Contract Management Agency
DFAS                  Defense Finance and Accounting Service
DFAS-CO               Defense Finance and Accounting Service Columbus
DRID 53               Defense Reformative Initiative Directive 53
FMR                   Financial Management Regulations
MOCAS                 Mechanization of Contract Administration Services
          Office of the Inspector General of the Department of Defense
Report No. D-2004-004                                                   October 24, 2003
   (Project No. D2002FJ-0205)

              Contracts Awaiting Financial Adjustment at the
             Defense Finance and Accounting Service Columbus

                                Executive Summary

Who Should Read This Report and Why? This report should be read by finance and
contract administration managers responsible for contract administration and closeout.
This report discusses contracts awaiting financial adjustments in the Payment
Adjustments section of the Mechanization of Contract Administration Services system.

Background. To improve its operations, DoD had planned to replace its Mechanization
of Contract Administration Services system with a new contract administration system,
the Defense Procurement Payment System. In anticipation of a transition, the Defense
Finance and Accounting Service and the Defense Contract Management Agency were
attempting to close out as many contracts as possible. On December 10, 2002, DoD
decided to discontinue funding for the development of the new system in the Program
Budget Decision 704, “Financial Management Modernization Program.” Instead,
funding was provided to modify and modernize the existing system. Despite the change
in plans, the timely close out of completed contracts continued to receive a high priority
within DoD. A section of the Mechanization of Contract Administration Services
system, Section 4, “Payment Adjustment,” is reserved for contracts needing some type of
financial adjustment, such as refunds received after a contract has been closed, reopened
contracts, and contracts requiring additional audit. Contracts cannot be closed out of the
Mechanization of Contract Administration Services system until all financial adjustments
have been processed.

Results. In the Mechanization of Contract Administration Services system,
1,084 contracts valued at $2.9 billion had remained open for more than 2 years and
upwards of 9 years while awaiting financial adjustment. As a result, there was increased
risk that contracts may become overage for closure, funding on the contracts could
cancel, or overpayments may not be recovered. Additionally, high numbers of
outstanding contracts awaiting financial adjustments, including adjustments to resolve
negative unliquidated obligations and potential overpayments, jeopardizes DoD efforts to
prepare financial information and statements that are auditable. Defense Finance and
Accounting Service Columbus needed to assign additional contract administrative reports
personnel to the processing of Section 4 contracts and take action to adjust and remove
contracts within 90 days as required by current policy. See the Finding section for the
detailed recommendations.
Management Comments. The Director, Defense Finance and Accounting Service
Columbus concurred with the finding and recommendations and provided an action plan
for corrective actions for each recommendation. He stated that the Defense Finance and
Accounting Service Columbus would continue to use the Section 4 extracts to maintain
the current prioritization and focus on the aged Section 4 contracts in inventory. In
addition, a team has been put together to resolve the remaining contracts in Section 4. He
also stated that all of the Contract Administrative Report functions are being monitored
on a weekly basis to ensure that appropriate resources are allocated to each function. He
further stated that the experienced Contract Administrative Report personnel and
supervisors are working a rigorous on-the-job training program to increase the
knowledge and experience of the new personnel.




                                            ii
Table of Contents

Executive Summary                                        i

Background                                              1

Objectives                                              2

Finding
     Contracts Needing Payment Adjustment                3

Appendixes
     A. Scope and Methodology                            8
          Management Control Program Review              8
          Prior Coverage                                 9
     B. Sample of 100 Contracts – As of February 2002   10
     C. Report Distribution                             13

Management Comments
     Defense Finance and Accounting Service Columbus    15
Background
    Prior to December 2002, the Defense Finance and Accounting Service Columbus
    (DFAS-CO) planned to replace the entitlement and payment functions performed
    by its automated system, the Mechanization of Contract Administration Services
    (MOCAS), with a new or modified system. The replacement system was
    expected to help achieve the goal of eliminating unmatched disbursements and
    negative unliquidated obligations. On March 23, 2000, the then Deputy Secretary
    of Defense issued Defense Reform Initiative Directive (DRID) 53,
    “Reconciliation of Contracts in the MOCAS System,” to support the replacement
    of MOCAS and facilitate the transition to another system.

    DRID 53 established a DOD-wide team to integrate and coordinate the
    reconciliation, closeout, and conversion of contracts from MOCAS to a new or
    modified system. The team consisted of the Military Departments, the Defense
    Logistic Support Command of the Defense Logistics Agency, Defense Finance
    and Accounting Service (DFAS), and the Defense Contract Management Agency
    (DCMA). The Military Departments and DCMA were directed to develop
    comprehensive plans for closing out all completed contracts. Additionally,
    DCMA and DFAS were directed to establish priorities for contract closure and to
    focus their efforts on those contracts in MOCAS that are active or have
    continuing requirements to be in a payment information system. The group
    organized contracts into DRID 53 groupings, one of which is Section 4, “Payment
    Adjustments,” contracts.

    DFAS-CO planned to continue to use the MOCAS system to administer, pay, and
    close DoD contracts until the system was replaced or modified. However, on
    December 10, 2002, DoD decided to discontinue funding for the development of a
    new system to replace MOCAS in Program Budget Decision 704, “Financial
    Management Modernization Program.” Instead, funding was provided to modify
    the existing MOCAS system. Despite the cancellation of the new system, the
    timely close out of completed contracts continued to be a high priority throughout
    DoD.

    The MOCAS system generated a Contract Administrative Report (CAR), which is
    a month-end inventory of all contracts requiring full or limited administration.
    On initial entry into the MOCAS system, a contract is automatically assigned to
    Part A, B, or C based upon the dollar value of the contract, the degree of attention
    that management is expected to give the contract, and the type of contract. Each
    part is subdivided into sections (that is, sections 1, 2, 3, 4, 5, 8, and 9) based upon
    the activity status of the contract and the type of actions required to close the
    contracts. A contract can only be in one part and section at a time. Section 4 is
    reserved for contracts that are physically and administratively complete with
    financial problems, such as refunds received after a contract had been closed,
    reopened contracts, and contracts requiring additional audit. DFAS desk
    procedures require that contracts not remain in Section 4 for more that 90 days.
    The only exceptions are contracts requiring cash collections and contracts needing
    reconciliation as identified by the administrative contracting officer.

    DFAS-CO is solely responsible for required financial adjustments to contracts in
    Section 4. Contracts cannot be closed out of MOCAS until all financial
    adjustments have been processed.

                                          1
Objectives
    Our overall audit objective was to determine the appropriateness and timeliness of
    the DFAS-CO actions to resolve issues for those contracts awaiting financial
    adjustments. We also planned to review the management control program as it
    related to the audit objective. See Appendix A for a discussion of the scope and
    methodology, and the Management Control Program.




                                        2
            Contracts Needing Payment Adjustment
            DFAS-CO was not taking the timely actions needed to close the contracts
            in Section 4. In MOCAS, 1,084 contracts valued at $2.9 billion had
            remained open for more than 2 years while awaiting financial adjustment.
            The prolonged delay occurred because the DFAS-CO did not give
            Section 4 contracts appropriate attention, and personnel responsible for
            processing financial adjustments to the contracts were assigned to other
            duties. As a result, there was increased risk that contracts may become
            overage for closure, funding on the contracts could cancel, or
            overpayments may not be recovered. Additionally, high numbers of
            outstanding contracts awaiting financial adjustments, including
            adjustments to resolve negative unliquidated obligations and potential
            overpayments, jeopardizes DoD efforts to prepare financial information
            and statements that are auditable.


Universe of Section 4 Contracts
     DFAS-CO provided the universe of contracts in the MOCAS system that had
     contractor performance completed on them and were awaiting DFAS-CO to make
     required financial adjustments (that is, Section 4 contracts). The universe showed
     that, as of February 2002, there was a total of 3,095 contracts in Section 4. These
     3,095 contracts had an obligated value of $34.4 billion.

     To determine whether DFAS-CO was taking actions on these contracts in a timely
     manner, we sorted the contracts by date of last activity. Of the total
     3,095 contracts in Section 4, 1,084 or 35 percent of the contracts showed no
     activity (that is, DFAS-CO efforts to make needed financial adjustment) for more
     than 2 years and upwards of 9 years. The 1,084 contracts had an obligated value
     of $2.9 billion. The following graph shows the extended periods of time that the
     contracts remained in Section 4 with no actions taken to process them.




                                          3
                                               Total of 1,084 Unprocessed
                                                  Section 4 Contracts




                                        385
Number of Contracts




                       272
                                                          256




                                                                            119



                                                                                             52




                       2-3              3-5               5-7               7-9            Over 9
                                                   Number of Years



                      To determine what actions were needed for DFAS-CO to close these contracts
                      quickly, we selected a random sample of 100 of the 1,084 contracts for detailed
                      review. The 100 contracts in our sample had an obligated value of approximately
                      $336.3 million. See Appendix B for a listing of the 100 contracts selected for
                      review and the period the contracts remained unworked.


        Timeliness of DFAS-CO Actions
                      DFAS-CO had not taken required actions on the contracts in Section 4 in
                      accordance with prescribed policies. The Financial Management Regulation
                      (FMR), volume 1, chapter 2, addendum 1, “DoD Financial Management System
                      Principles,” discusses timeliness of financial transactions and requires financial
                      management data to be recorded as soon as possible after the occurrence of the
                      event. DFAS-CO Desk Procedure 604, “Contract Administrative Report (CAR)
                      Part A and B, Section 4 Listing,” directs that, with the exception of cash
                      collections, contracts should not remain in Section 4 of MOCAS for more than
                      90 days.

                      The existing policies were not followed by DFAS-CO. As shown in Appendix B,
                      the contracts remained in Section 4 for much longer than 90 days. The primary
                      reasons for the delays in processing the contracts were lack of priority and
                      attention and a lack of resources to devote to the task.



                                                           4
Management Priority and Attention
    DFAS-CO management had not given appropriate priority and attention to
    contracts that required DFAS-CO financial adjustment and had been residing in
    Section 4 for extended periods of time. DFAS-CO had given the processing of
    Section 4 contracts a low priority because other tasks required more attention.

    Had DFAS-CO management assigned a sufficient priority to working Section 4
    contracts, many of them could have been processed for closure quickly and with
    relatively minor effort. To illustrate, we provided DFAS-CO with a listing of the
    100 randomly selected Section 4 contracts that we planned on reviewing. Of the
    100 contracts, 54 were processed for closure in approximately 90 days of
    receiving our list. Additionally, 23 of the 100 contracts should not have been in
    Section 4.

    By March 2003, of the 100 contracts selected for review, 64 were closed out,
    24 were moved to appropriate sections for ongoing administration, and only
    12 remained in Section 4 for more extensive attention, research, and adjustment.
    Allowing contracts to remain in Section 4 for an extended period of time could
    result in the cancellation of funding on the contracts. Information DFAS provided
    showed that funds had canceled on twelve of the contracts in our sample.

    DFAS-CO needs to closely monitor contracts in Section 4, or funding on the
    contracts could cancel. Once funds designated for contract payment have been
    canceled, the funds can no longer be used to pay obligations. At that point,
    DFAS-CO is required to go to the original funding source for current year funds.
    Unless current year funds are available, valid contractor obligations would remain
    unpaid. These unpaid obligations would continue to draw interest until paid.

    In other instances, DoD may need to collect overpayments made to contractors.
    For example, one of the contracts in our sample, contract number F33657-83-
    C0417 showed a negative unliquidated obligation of $21,401 at the accounting
    classification reference number level of the contract and an overall contract
    negative unliquidated obligation of $71,292. Negative unliquidated obligations
    indicate there has been an inaccurate posting of financial transactions to a contract
    or that the contractor may have been overpaid. However, DFAS-CO had not
    taken any action to determine the cause of the negative unliquidated obligation,
    which was recorded on this contract on August 7, 1997. The contract should have
    been sent to the reconciliation division for an audit of the payments and, if it was
    determined that the contractor had actually been overpaid, a demand letter should
    have been issued for the overpayment.

    Additionally, the fact that the contracts remain unworked is contrary to sound
    contract administration and the closeout practice. In our sample of 100 Section 4
    contracts that have been unworked for more than 2 years, 37 of the contacts had
    been awarded during 1979 through 1989 and should have been processed for
    closure many years earlier, and are now overage. More timely action on contracts
    in Section 4 is needed.




                                         5
Reasons for Inactivity
     We asked DFAS-CO management personnel why contracts had resided in
     Section 4 for so much time with no effort made to process them. DFAS-CO
     management stated that the primary reason was that a higher priority was given to
     working DRID 53 identified contracts for closure, performing other contract
     reconciliations, validating J-coded invoices (that is, contractor invoices that
     cannot be paid until another financial transaction is posted), and processing
     normal vendor requests for payment. They stated that personnel responsible for
     processing the needed financial adjustments to contracts in Section 4
     (specifically, CAR branch personnel) were assigned to those other duties.

     Staffing Assignments. DFAS-CO established the CAR Branch to perform
     several functions, including moving contracts through the MOCAS system from
     inception to closeout in a timely manner and processing the necessary actions
     needed to resolve the financial problems on contracts in Section 4. Processing
     contracts and placing them in the appropriate section of MOCAS is critical to the
     success and operational integrity of both contract administration and the contract
     closure process.

     Although DFAS-CO was working to effect timely processing of DRID 53
     prioritized contracts, fund reconciliation, J-coded invoices, and other vendor
     issues, the need to review and process Section 4 contracts in a timely manner
     must be reevaluated by DFAS-CO. Allowing completed contracts to remain
     unworked in Section 4 for years at a time will result in increased risk of the lapse
     of funding, non-collection of overpayments, and payment of interest on amounts
     that are owed.

     Experienced Staff. In addition to redirecting staff to work on other duties, the
     lack of experienced CAR personnel affected the level of effort made to process
     contracts in Section 4. CAR branch managers stated that a primary reason
     Section 4 contracts were not processed timely was the lack of experienced
     personnel. DFAS-CO told us that 40 personnel were assigned to the CAR branch
     in 1998. However, the branch had only 21 individuals assigned to it. Further,
     only 7 of the 21 branch personnel had CAR experience. DFAS-CO needs to
     provide additional experienced resources for processing Section 4 contracts.




                                           6
Summary
    Allowing contracts to remain in Section 4 for extended periods of time is contrary
    to effective contract administration. DoD had undertaken a major initiative in
    compliance with DRID 53 to close out contracts in MOCAS for which contractor
    performance had been completed. Although DFAS-CO management stated that
    working DRID 53 identified contracts for closure was one of its priorities, a
    substantial number of contracts that should have been processed for closeout from
    MOCAS remained in Section 4, and little effort was made to process them. The
    effort needed to process these contracts was not overwhelming as evidenced by
    the quick action taken on the contracts in our sample. DFAS-CO management
    needed to ensure completed contracts residing in Section 4 were processed for
    closure in a timely manner.

Recommendations and Management Comments
    We recommend that the Director, Defense Finance and Accounting Service
    Columbus:

          1. Monitor contracts in Section 4 closely to ensure timely processing
    and prioritize the contracts to ensure that funds do not cancel.

    DFAS Comments. The Director, Defense Finance and Accounting Service
    Columbus concurred. DFAS-CO planned to maintain prioritization and focus on
    the aged contracts in the Section 4 inventory. Of the 1,084 contracts identified,
    DFAS-CO closed 45 percent, 20 percent were placed in active status, and
    1 percent was moved to a dormant status pending a complete or partial
    termination. To ensure the timely processing and prioritization, a team has been
    put together to close out the remaining 34 percent of the contracts in Section 4.

            2. Assign, as appropriate, existing contract administrative personnel
    to the processing of Section 4 contracts until the backlog is reduced.

    DFAS Comments. The Director, Defense Finance and Accounting Service
    Columbus concurred. All of the CAR functions are being monitored on a weekly
    basis to ensure that appropriate resources are allocated to each CAR function
    including the Section 4 inventories. Resource allocation and overtime will be
    used to address fluctuations in inventory to ensure that all balances are properly
    maintained.

           3. Study the contract administrative reports personnel requirements
    and, as needed, seek additional experienced personnel for the processing of
    Section 4 contracts.

    DFAS Comments. The Director, Defense Finance and Accounting Service
    Columbus concurred. As a result of a functional realignment, three technicians
    were added, and two new positions have been targeted for realignment to the
    CAR Branch. Also, the experienced CAR Accounting Technicians, Lead
    Accounting Technicians, and CAR Supervisors are working a rigorous on-the-job
    training program to increase the knowledge and experience of the new
    technicians.
                                         7
Appendix A. Scope and Methodology
    We reviewed contracts that were in Section 4 of the MOCAS system. Our scope
    included 1,084 contracts that, for various reasons, did not have any activity on
    them for more than 2 years.

    We randomly selected 100 contracts from the universe of 1,084 for detailed
    review. We reviewed all obtainable contract files and documentation, held
    discussions with DFAS-CO personnel, and obtained relevant records from
    MOCAS to determine the reasons our sample of 100 contracts resided in
    Section 4 for more than 2 years with no activity.

    We performed this audit from February 2002 to June 2003 in accordance with
    generally accepted government auditing standards.

    Use of Computer-Processed Data. We relied on computer-processed data from
    MOCAS to determine why contracts in our sample were in Section 4 for more
    than 2 years with no activity on them. Although we did not perform a formal
    reliability assessment of the computer-processed data, we did not find errors that
    would preclude the use of the computer-processed data to meet the audit objective
    or that would change the conclusions in this report.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD contract management and financial management high-risk areas.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We did not
    perform a full review of the adequacy of management controls on the contracts
    awaiting financial adjustments in order to complete the contract closure process.
    The DoD Statement of Assurance reported, “the Department’s accounting,
    finance, and feeder systems do not fully comply with Federal Financial
    Management systems requirements.” MOCAS is among these systems used by
    DoD for financial-related operations. Also, DoD has reported, under its
    acquisition process and systems, weaknesses in acquisitions but did not
    specifically identify weaknesses in its contract closure process. Additionally,
    DFAS-CO internal control risk assessments did not identify problems with the
    processing of contracts in Section 4.




                                         8
Prior Coverage
    No prior coverage has been conducted on contracts awaiting financial adjustments
    in Section 4 during the last 5 years.




                                       9
Appendix B. Sample of 100 Contracts–As of
            February 2002
          Contract No.          Year        Date of Last   Length Contract
                               Awarded       Activity       Unprocessed
                                                             (In Years)

   1. SP0750-94-D1014/0001      1994          Feb-96             6
   2. N66001-87-D0019/0005      1987          Aug-98             3
   3. DLA900-89-C0624           1989          Sep-96             5
   4. N00140-97-DH155/0020      1997          Apr-99             2
   5. F30635-92-MV123           1992          Nov-92             9
   6. N00600-90-D2889/0034      1990          Sep-98             3
   7. SP0750-97-MM432           1997          Jun-97             4
   8. N00383-92-C7016           1992          Dec-96             5
   9. SP0460-96-MT054           1996          Nov-95             6
   10. SP0500-97-MDC65          1997          Apr-97             4
   11. F33657-83-C0417          1983          Aug-97             4
   12. N68520-90-D0018/ WN4A    1990          Aug-99             2
   13. N00104-80-G0017/0025     1980          Oct-95             6
   14. DLA700-93-M0365          1993          Aug-94             7
   15. N66001-87-D0019/0006     1987          May-97             4
   16. SP0441-93-G7554/TY40     1993          Oct-95             6
   17. DLA120-93-D4082/0001     1993          Jan-96             6
   18. SP0770-96-MDW28          1996          Apr-96             5
   19. N00019-93-G0129/YC38     1993          Apr-96             5
   20. N66001-87-D0006          1987          Aug-99             2
   21. F09603-96-D0117/0001     1996          Feb-00             2
   22. DLA400-90-C5264          1990          Aug-96             5
   23. SP0770-96-MRS13          1996          Apr-99             2
   24. DAAK80-81-C0211          1981          Oct-96             5
   25. N00123-90-D5335/4WTA     1990          Apr-99             2
   26. N66604-87-D0070/0031     1987          Mar-97             4
   27. N00123-87-D5086/EW49     1987          Apr-95             6
   28. N66001-87-D0083/0001     1987          Dec-98             3
   29. N00406-90-MF487          1990          Jul-97             4
   30. N66001-82-C0472          1982          Aug-95             6
   31. SP0500-97-MVF08          1997          Feb-00             2
   32. N00383-95-GM120/UBE9     1995          Jun-97             4
   33. N68520-85-D9052/0069     1985           Jul-92            9




                                       10
      Contract No.          Year          Date of Last   Length Contract
                           Awarded         Activity       Unprocessed
                                                           (In Years)
34. N00140-87-D9382/0008    1987             Sep-99             2
35. DAAH01-79-C1071         1979             Jan-94            8
36. N00383-95-GM120/TY66    1995            Dec-97             4
37. N66604-91-D1063/0048    1991            Jan-99             3
38. F42600-90-G7536/TZ09    1990            Dec-93             8
39. SP0450-95-C5516         1995            Jun-98             3
40. DLA500-86-M6924         1986            Sep-97             4
41. DAAK60-90-C1066         1990            Feb-96             6
42. N00189-94-D0283/FJ06    1994            Feb-99             3
43. N00104-89-GA118/5108    1989            Nov-96             5
44. N00014-85-C2431         1985            Feb-97             5
45. SP0960-97-M1074         1997            Jan-97             5
46. N66001-87-D0138/0014    1987            Jan-95             7
47. DAAA21-88-C0167         1988            Jan-99             3
48. SP0100-96-D1000/0004    1996            Nov-97             4
49. F33615-88-C1835         1988            Aug-98             3
50. N00104-90-PC209         1990            Jan-97             5
51. N00104-92-CMA93         1992            Jul-95             6
52. N66001-86-D0079/0004    1986            Dec-97             4
53. SP0750-95-M2154         1995            Aug-99             2
54. SP0450-96-ML555         1996            Aug-99             2
55. SP0460-96-MPJ98         1996            Jan-98             4
56. N00024-85-G7156/UR03    1985            Nov-99             2
57. N00140-85-DE205/0043    1985            Jun-99             2
58. F42600-81-C6026         1981            May-96             5
59. F09603-89-C2666         1989            Feb-00             2
60. SP0500-95-WB528         1995            Mar-95             6
61. N68520-90-D0041/0008    1990            Aug-92             9
62. SP0750-95-M0592         1995            May-96             5
63. F09603-98-G0001/TZ42    1998            Dec-99             2
64. DAAL02-85-C0101         1985            Jan-99             3
65. SP0700-94-G0002/UD60    1994            Apr-96             5
66. N00024-91-D5611/0006    1991            Sep-96             5
67. F09603-94-G0013/TY01    1994            Mar-98             3
68. SP0450-95-MKS37         1995            Nov-97             4
69. DAAB07-86-CD501         1986            Jan-00             2
70. SPO460-97-M4472         1997            Jan-99             3
71. DLA440-94-M2072         1994            Nov-93             8
72. DLA100-87-C0723         1987            Jun-99             2
73. F42610-96-M0042         1996            May-93             8
74. DLA100-93-D4146/0009    1993            Oct-96             5




                                     11
     Contract No.       Year Awarded      Date of Last   Length Contract
                                           Activity       Unprocessed
                                                           (In Years)

 75. SP0500-97-MN007         1997        Oct-97                 4
 76. F41608-94-D0001/3520    1994        Sep-96                 5
 77. DLAH00-87-D0014/9302    1987        Oct-92                 9
 78. DLA900-93-DC324/0002    1993        Jan-97                 5
 79. N68335-97-G0023/UG13    1997        Jul-99                 2
 80. F09603-91-C1453         1991        Sep-96                 5
 81. N00024-85-G7153/XB05    1985        Nov-98                 3
 82. N68520-90-D0041/0002    1990        Sep-92                 9
 83. F04704-84-C0008         1984        Oct-98                 3
 84. DLAH00-87-D0014/9216    1987        Nov-92                 9
 85. N00189-92-C0263         1992        Jul-97                 4
 86. DAAH01-97-P0077         1997        Sep-97                 4
 87. DAEA26-86-D2006/0007    1986        Aug-94                 7
 88. SP0460-96-MPH25         1996        Jun-97                 4
 89. DLA500-93-MPF81         1993        Jan-94                 8
 90. SPO740-96-M9349         1996        Apr-96                 5
 91. SPO500-97-C0023         1997        Mar-97                 4
 92. SP0460-95-MD969         1995        Oct-95                 6
 93. N00189-87-D0102/0003    1987        Sep-99                 2
 94. DLA400-88-C1444         1988        Aug-99                 2
 95. SP0430-97-MQ296         1997        Dec-97                 4
 96. DLA720-88-M3187         1988        Aug-99                 2
 97. DAAE07-95-C0550         1995        May-96                 5
 98. F30602-82-C0079         1982        Oct-98                 3
 99. SP0740-97-M6015         1997        Sep-98                 3
100. USZA95-98-C0005         1998        Mar-98                 3




                                    12
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Defense Procurement and Acquisition Policy

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Logistics Agency




                                          13
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        14
Defense Finance and Accounting Service
Comments




                      15
16
17
18
Team Members
The Defense Financial Auditing Service Directorate, Office of the Deputy
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
James L. Kornides
John K. Issel
Eric T. Thacker
Walter J. Carney
Carlisa M. Miles
John P. Frawley
Terry D. Holdren
Ann L. Thompson




                                   19
